APPENDIX

-l-

APPENDIX TABLE OF CONTENTS
Page
Unpublished Opinion of
The United States Court of Appeals
For the Fifth Circuit
entered June 28, 2019...........

la

Judgment of
United States District Court
Western District of Texas
entered August 30, 2019

18a

Order of
The United States Court of Appeals for
The Fifth Circuit
Re: Denying Petition for Rehearing
entered August 30, 2019..............

20a

Final Order of
The Honorable David Alan Ezra
Re: Granting Respondents’ Motions to Dismiss and
Alternative Motions for Summary Judgment
filed March 29, 2018
22a
29 CFR § 1614.103

53a

29 CFR § 1614.107

56a

29 CFR § 1614.405

60a

29 CFR § 1614.408

62a

29 CFR § 1614.503

63a

-li-

32 USCS § 709

66a

42 USCS § 2000e-16

69a

29 CFR § 1614.405

74a

-in-

la
FILED: JUNE 28, 2019
IN THE UNITED STATES COURT OF
APPEALS FOR THE FIFTH CIRCUIT

No. 18-50438
TINA NEVILLE,
Plaintiff - Appellant
v.
VICTORIA LIPNIC, Acting Chair of the U.S. Equal
Employment Opportunity Commission; PATRICK M.
SHANAHAN,
ACTING
SECRETARY,
U.S.
DEPARTMENT
OF
DEFENSE;
HEATHER
WILSON, Secretary of the Air Force; GENERAL
JOSEPH L. LENGYEL, Chief, National Guard
Bureau; JOHN F. NICHOLS, Major, Adjutant
General-Texas Military,
Defendants - Appellees

Appeal from the United States District Court
for the Western District of Texas
USDC No. 5:16-CV-1231

2a
Before CLEMENT,
Circuit Judges.

GRAVES,

and

OLDHAM,

PER CURIAM:*
Tina Neville appeals the district court’s grant
of motions to dismiss and, alternatively, for summary
judgment in favor of federal and state entities after
the dismissal of her petition for writ of mandamus
seeking military agency compliance with Equal
Employment Opportunity Commission (EEOC)
orders finding discrimination. For the reasons set
forth below, we AFFIRM.
FACTS AND PROCEDURAL HISTORY
Tina Neville was employed as a Dual-Status
National Guard Technician at Lackland Air Force
Base in San Antonio. Dual-Status Technicians (DST)
are by statute both employees of the Department of
the Air Force and civilian employees of the United
States. See 32 U.S.C. § 709(e). As a condition to the
civilian portion of the employment, a DST must
become and remain a uniformed member of the
National Guard. See 32 U.S.C. §§ 709(b), (d)-(e).
Neville was employed in a civilian capacity as a WG12 Aircraft Mechanic and in a military capacity as an
Air Force Master Sergeant in the 149th Fighter Wing
at Lackland. Her status as a DST involved servicing
F-16 fighter jets in both her civilian and military
capacities.

* Pursuant to 5TH ClR. R. 47.5, the court has determined
that this opinion should not be published and is not precedent
except under the limited circumstances set forth in 5TH ClR. R.
47.5.4.

3a
In March 2006, Neville had a hysterectomy.
Subsequently, she developed complications related to
endometriosis and submitted documentation from her
physicians ordering her to work on light duty. Neville
maintains that her supervisor, Pedro Soriano, refused
to allow her “light duty” because “guys don’t have
hysterectomies,” and, as a result, she suffered a right
knee injury and lower back sprain. Neville took a
medical leave of absence from June 25 or 26, 2007, to
May 12, 2008. On June 26, 2007, Neville received a
performance evaluation from Soriano with a rating of
“Fully Successful” rather than her previous rating of
“Outstanding.” Neville maintains that Soriano said
he would not give an “Outstanding” rating to someone
he and “the guys did not respect.”
As a result of her injury, Neville filed a claim
with the Department of Labor’s Office of Workers’
Compensation Program (OWCP). Although she
received her regular base salary for the requisite 45
days after she was injured, Neville maintains she did
not begin to receive workers’ compensation benefits
until January 2008. On May 12, 2008, Neville
returned to work on light duty status. However,
Neville believed the modified position exceeded her
physical limitations. As a result, Neville stopped
reporting to work on August 26, 2008. On November
6, 2008, the OWCP terminated Neville’s benefits on
the grounds that she had abandoned suitable work
offered by her employer without any justification. In
January 2009, Neville took disability retirement and
retired from both her military and civilian positions.
Meanwhile, on November 13, 2007, Neville
filed an EEOC complaint alleging that the United
States Air Force (USAF) and the National Guard

4a
Bureau (NGB) discriminated against her on the bases
of sex (female) and disability (complications from her
hysterectomy).
On January 26, 2011, after various hearings,
an EEOC Administrative Law Judge (ALJ) issued a
decision finding that Neville established she had been
subjected to gender discrimination when Soriano
refused to assign her light duty and when he issued
an annual performance rating of “Fully Successful”
rather than “Outstanding.”
The ALJ also noted
numerous incidents of various crew members calling
Neville offensive names and subjecting Neville to
other harassment.
As a result of the discrimination, the ALJ
ordered relief in the form of (1) back pay with interest
and benefits; (2) non-pecuniary compensatory
damages for the emotional and physical harm Neville
suffered as a result of the discrimination; (3)
attorneys’ fees and costs of $63,675.03; and (4) an
amendment to Neville’s 2006-07 performance
appraisal. The ALJ also ordered NGB to provide EEO
training, post a notice of discrimination for 12
months, and recommended that disciplinary action be
taken against Soriano.
Thereafter, the federal and state defendants
declined to implement the ruling on jurisdictional
grounds, asserting the actions arose out of Neville’s
service as a military technician, were barred by the
Feres doctrine, and also that the ALJ ordered relief in
contravention of the Eleventh Amendment because
the Texas Military Department is a state entity and
did not waive its sovereign immunity. The USAF and
NGB appealed the ALJ’s decision and Neville

5a
counter-appealed. On August 1, 2013, the EEOC’s
Office of Federal Operations (OFO) issued a final
decision. The 2013 OFO decision: (1) upheld the
ALJ’s decision finding sex discrimination; (2) ordered
an increased non- pecuniary award of $150,000 be
paid to Neville within 60 days; (3) ordered the NGB to
provide Neville back pay for the period between June
25, 2007, and August 26, 2008, as well as attorneys’
fees and other remedial action within 60 days; (4)
ordered the NGB to amend Neville’s 2006-07
performance rating within 60 days; (5) ordered the
NGB to provide Title VII training to all management
officials at Lackland; (6) ordered the NGB to take
disciplinary action against responsible management
officials; and (7) ordered the NGB to post a notice of
discrimination.
On December 17, 2013, Neville filed a petition
for enforcement (PFE) of the order with the EEOC,
claiming that the USAF, NGB and Texas Air National
Guard (TXANG) had disregarded the 2013 OFO
decision.
On July 2, 2015, the EEOC issued its 2015 PFE
decision finding: (1) at the time of Neville’s claim, she
was acting as a federal civilian employee under the
protection of Title VII; (2) the TXANG is a federal
executive agency for the purposes of Title VII; and the
TXANG discriminated against Neville based on her
sex. In addition to the above-listed requirements of
the 2013 OFO decision, the 2015 PFE decision
ordered the TXANG to: (1) pay Neville $150,000 in
non- pecuniary compensatory damages, as well as
$63,675.03 in attorneys’ fees and costs, within 30
days; (2) compensate Neville for all back pay, with
interest and benefits between June 25, 2007 and

6a
August 26, 2008, within 30 days; calculate and
compensate Neville for any overtime; (4) amend
Neville’s 2006-07 performance appraisal; and (7)
provide at least 16 hours of in-person training to all
management officials and employees at Lackland,
149th Fighter Wing, Flight Line Section, regarding
Title VII responsibilities. The 2015 PFE decision also
ordered the Department of Defense, as head of the
NGB and USAF, to consider taking appropriate
disciplinary measures against the responsible
employees and to post notice of discrimination.
Additionally, the 2015 PFE decision said that, if the
agencies failed to comply, then Neville had the right
to file a civil action to force compliance under 29
C.F.R. §§ 1614.407, 1614.408 and 1614.503(g).
On March 18, 2016, Neville filed an Amended
Petition for Writ of Mandamus in the U.S. District
Court for the District of Columbia seeking to compel
the EEOC to enforce the final decision on her PFE or,
alternatively, to force the defendants to comply with
the PFE.1 In December 2016, Neville’s amended
petition was transferred to the Western District of
Texas. Thereafter, the defendants filed motions to
dismiss and, alternatively, for summary judgment.
Neville filed a motion for summary judgment and,
alternatively, for a directed verdict. On November 20,
2017, the district court granted the defendants’
motions and denied Neville’s. The court dismissed
Neville’s petition for writ of mandamus. Neville
subsequently filed this appeal.

1 Neville filed her original petition for writ of mandamus
on July 1, 2015, one day before the EEOC issued its 2015 PFE
Decision.

7a
STANDARD OF REVIEW
Under federal law, “[t]he district courts shall
have original jurisdiction of any action in the nature
of mandamus to compel an officer or employee of the
United States or any agency thereof to perform a duty
owed to the plaintiff.” See 28 U.S.C. §1361. A district
court awards mandamus “in the exercise of a sound
judicial discretion.” Newsome u. E.E.O.C., 301 F.3d
227, 231 (5th Cir. 2002) (quoting Duncan Townsite
Co. v. Lane, 245 U.S. 308, 311 (1917)). A district
court’s decision not to exercise jurisdiction under the
mandamus statute is reviewed for an abuse of
discretion. Newsome, 301 F.3d at 231. Further:
A
writ
of
mandamus
is
an
“extraordinary remedy.” Adams v. Georgia
Gulf Corp., 237 F.3d 538, 542 (5th Cir.2001).
“Mandamus is not available to review
discretionary acts of agency officials.” Green u.
Heckler, 742 F.2d 237, 241 (5th Cir. 1984).
Further, in order to be granted a writ of
mandamus, “[a] plaintiff must show a clear
right to the relief sought, a clear duty by the
defendant to do the particular act, and that no
other adequate remedy is available.” U.S. v.
O’Neil, 767 F.2d 1111, 1112 (5th Cir. 1985)
(quoting Green, 742 F.2d at 241).
Id.
We review de novo a district court’s dismissal
under Rule 12(b)(1) for lack of subject matter
jurisdiction. Randall D. Wolcott, M.D., P.A. u.
Sebelius, 635 F.3d 757, 762 (5th Cir. 2011). The
district court must dismiss the action if it finds that it
lacks subject matter jurisdiction. Fed. R. Civ. P.

8a
12(h)(3). “A trial court may find that subject matter
jurisdiction is lacking based on (1) the complaint
alone; (2) the complaint supplemented by undisputed
facts evidenced in the record; or (3) the complaint
supplemented by undisputed facts plus the court’s
resolution of disputed facts.” Wolcott, 635 F.3d at 762
(internal marks and citations omitted).
A district court’s dismissal under Rule 12(b)(6)
is reviewed de novo, accepting all well-pleaded facts
as true and viewing them in the light most favorable
to the plaintiff. Id. at 763. We likewise review
questions of law de novo. Szwak u. Earwood, 592 F.3d
664, 668 (5th Cir. 2009). Reversal is not appropriate
where the district court can be affirmed on any
grounds. Wolcott, 635 F.3d at 763.
We review de novo a district court’s grant of
summary judgment, viewing all evidence in the light
most favorable to the nonmoving party and drawing
all reasonable inferences in that party’s favor. Dediol
v. Best Chevrolet, 655 F.3d 435, 439 (5th Cir. 2011).
Summary judgment is proper when “the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). A genuine
issue of material fact exists “if the evidence is such
that a reasonable jury could return a verdict for the
non-moving party.” Crawford v. Formosa Plastics
Corp., 234 F.3d 899, 902 (5th Cir.2000) (quoting
Anderson v. Liberty Lobby, Inc., All U.S. 242 (1986)).

9a
DISCUSSION
I. Whether the district court erred in finding
the EEOC did not owe Tina Neville a duty to
enforce its judgments against its co-defendants.
After Neville’s case was transferred to the
Western District of Texas, due to the complexity of the
Case and the multiple parties involved, the district
court dismissed all then-pending motions without
prejudice to re-filing in the interests of efficient case
management.
Subsequently, the EEOC, federal
defendants, and the state defendant separately filed
motions to dismiss pursuant to Rules 12(b)(1) and
12(b)(6) of the Federal Rules of Civil Procedure and,
alternatively, for summary judgment. Neville filed a
motion for summary judgment and, alternatively, for
directed verdict.
The district court found that it did not have
jurisdiction over Neville’s mandamus claims and
granted the defendants’ motions to dismiss and
alternative motions for summary judgment. In doing
so, the district court agreed with the EEOC that it did
not have a nondiscretionary duty to attempt to obtain
an agency’s compliance with a final EEOC order after
the employee commenced a civil action in federal
court.
Neville asserts that the EEOC owed her a duty
to take all necessary action to enforce its order and
that the district court erred. Neville also asserts that
the EEOC reassumed any obligation it may have
waived when it acted on her case again. The action to
which Neville refers was merely a letter sent on
January 25, 2017, from the EEOC to various
defendants “reminding them the NDAA [National

10a
Defense Authorization Act] of 2017 clarifies that
federal employment discrimination claims arising
from activities occurring when National Guard
members are in civilian pay status are indeed covered
by Title VIL”
Under 29 C.F.R. § 1614.503, “[a] complainant
may petition the Commission for enforcement of a
decision issued under the Commission’s appellate
jurisdiction” setting forth “the reasons that lead
the complainant to believe that the agency is
not complying with the decision.” 29 C.F.R.
§ 1614.503(a). The EEOC is then required to
undertake the necessary steps to gain compliance. 29
C.F.R. § 1614.503(b).
Further, Neville had the option of filing a civil
action to enforce compliance or filing a de novo civil
action on the underlying discrimination claim. See
Massingill v. Nicholson, 496 F.3d 382, 384 (5th Cir.
2007).
The EEOC regulations state:
A complainant who has filed an
individual complaint, an agent who has filed a
class complaint or a claimant who has filed a
claim for individual relief pursuant to a class
complaint is authorized under title VII, the
ADEA and the Rehabilitation Act to file a civil
action in an appropriate United States District
Court:
(a) Within 90 days of receipt of the final
action on an individual or class
complaint if no appeal has been filed;

11a
(b) After 180 days from the date of filing
an individual or class complaint if an
appeal has not been filed and final action
has not been taken;
(c) Within 90 days of receipt of the
Commission's final decision on an
appeal; or
(d) After 180 days from the date of filing
an appeal with the Commission if there
has been no final decision by the
Commission.
29 C.F.R. § 1614.407.
Additionally, pursuant to employment by the
federal government:
Within 90 days of receipt of notice of
final action taken by a department, agency, or
unit referred to in subsection (a), or by the
Equal Employment Opportunity Commission
upon an appeal from a decision or order of such
department, agency, or unit on a complaint of
discrimination based on race, color, religion,
sex or national origin, brought pursuant to
subsection (a) of this section, Executive Order
11478 or any succeeding Executive orders, or
after one hundred and eighty days from the
filing of the initial charge with the department,
agency, or unit or with the Equal Employment
Opportunity Commission on appeal from a
decision or order of such department, agency,
or unit until such time as final action may be
taken by a department, agency, or unit, an
employee or applicant for employment, if
aggrieved by the final disposition of his

12a
complaint, or by the failure to take final action
on his complaint, may file a civil action as
provided in section 2000e-5 of this title, in
which civil action the head of the department,
agency, or unit, as appropriate, shall be the
defendant.
42 U.S.C. § 2000e-16(c).
Neville filed a petition for enforcement with the
EEOC. But, when the EEOC failed to issue a decision
within 180 days, Neville filed her petition for writ of
mandamus. This court has said that an employee’s
decision to pursue Title VII claims in federal court
typically mandates dismissal of the EEOC complaint
and “precludes the EEOC from entertaining an
appeal of that dismissal.” Walch v. Adjutant Gen.’s
Dep’t of Tex., 533 F.3d 289, 304 n.7 (5th Cir. 2008); see
also 29 C.F.R. §§ 1614.107(a)(3), 1614.409.
Based on this authority, we conclude that the
district court correctly granted the EEOC’s motion to
dismiss and, alternatively, for summary judgment.
II.
Whether the district court erred in
finding that the federal defendants and state
defendant were immune from prosecution
based on the Feres doctrine.
The Feres doctrine of intra-military immunity
precludes members of the military from pursuing
claims against the military or the United States for
injuries that arise out of or in the course of military
service. See Feres v. United States, 340 U.S. 135, 146
(1950). Here, the federal defendants argued, and the
district court agreed, that Neville’s mandamus claims
arose out of or in the course of activity incident to her

13a
military service. Thus, judicial review was precluded.
Further, they assert on appeal that, even if the Title
VII claims arose purely from Neville’s civilian
position, they would still be barred by the Feres
doctrine.
Neville asserts that the Feres doctrine does not
apply because her mandamus claims arose from her
position as a civilian employee. Neville acknowledges
that “the reach of Feres is uncertain in cases
regarding national guard technicians.” (Appellant’s
Brief at 27). Neville cites Overton v. New York State
Div. of Military and Naval Affairs, 373 F.3d 83, 92 (2d
Cir. 2004).
Overton states that “[t]here are at least two
persuasive reasons to conclude that the Feres doctrine
may apply to a lawsuit based on alleged actions taken
while the Guard Technician is being paid as a civilian
employee.” Id. at 92. Those reasons are: (1) “a Guard
Technician’s employment as a civilian is usually in
support of a mission that is ultimately military in
nature;” and (2) “there are concerns about the
intrusive nature of the inquiry that would be
necessary for a federal court to disentangle a
plaintiffs
civilian
and
military
duties
.... The mere process of arriving at correct
conclusions would disrupt the military regime.” Id.,
373 F.3d at 92. (internal marks and citation omitted).
The Overton court then explained that the application
of the Feres doctrine to certain Title VII actions is not
entirely straightforward, as Feres leaves matters
incident to service to the military “in the absence of
congressional direction to the contrary.” Id. at 93.

14a
In Brown v. United States, 227 F.3d 295, 299
(5th Cir. 2000), this court stated that a Guard
technician’s Title VII racial discrimination claim
would be permissible if it involved only actions taken
purely in a civilian capacity. However, this court
noted that categorizing such a claim may be difficult
and that a civilian claim might be military if it
challenged conduct that was “integrally related to the
military’s unique structure.” Id. at 299 n.5 (citing
Mier u. Owens, 57 F.3d 747, 750 (9th Cir. 1995)).
Further, in Brown, the actions were considered
military and the court was not required to determine
which cases would be purely civilian.
In 2008, this court considered whether Feres
barred the discrimination and retaliation claims of a
DST. See Walch, 533 F.3d 289. In a situation where
the classification of a claim is difficult, the court said
it “might turn to factors such as whether the conduct
is integrally related to the military’s unique
structure.” Id. at 299 (internal marks and citations
omitted). Further, the court said, “we find in the
Federal Circuit's opinion a useful listing of the claims
that dual-status employees could not pursue as those
that relate to enlistment, transfer, promotion,
suspension and discharge or that otherwise involve
the military hierarchy.” Id. at 300 (internal marks
and citations omitted). This court then concluded:
Under these precedents, a court may not
reconsider what a claimant's superiors did in
the name of personnel management—
demotions, determining performance level,
reassignments to different jobs—because such
decisions are integral to the military structure.
Some of those decisions might on occasion be

15a
infected with the kinds of discrimination that
Title VII seeks to correct, but in the military
context the disruption of judicially examining
each claim in each case has been held to
undermine other important concerns.
Walch, 533 F.3d at 301.
This court also addressed this matter in
Williams v. Wynne, 533 F.3d 360 (5th Cir. 2008) and
Filer v. Donley, 690 F.3d 643 (5th Cir. 2012).
Specifically, in Filer, this court concluded:
Filer challenges as inadequate the Air Force's
response to the noose incident. The Air Force
conducted two separate investigations of the
incident, one of which adjudged its impact on
unit cohesion, while the other resulted in
decisions about military promotion, awarding
military honors, and appropriate training for
military personnel. Lt. Col. Kountz had to clear
his decision on Roark's military discipline with
the FW Commander, Col. Pottinger. A session
of squadron-wide EEO training was ordered.
These decisions are integrally related to the
military's unique structure. Judicial re­
examination of such decisions would be
disruptive to the military.
Id. at 649 (internal marks and citations omitted).
Further, the court said:
[Bjecause Title VII hostile environment claims
often criticize the conduct of co-workers as well
as supervisors, they are at least as likely as
individual discharge claims to require close
review of military structure, discipline, and

16a
cohesion. Feres broadly prohibits tort suits
where a service person's injuries “arise out of
or are in the course of activity incident to
service.” Feres, 340 U.S. at 146, 71 S.Ct. at 159.
It is the military environment, not the nature
of the claim, that is controlling.
Id., at 649-50.
As stated by the district court, the events
giving rise to Neville’s claims occurred on Lackland
Air Force Base. Neville performed the same mechanic
tasks of servicing F-16 fighter jets in both her civilian
and military capacities as a DST. The district court
correctly concluded that those tasks are military in
nature and integral to the military mission. Neville’s
petition for writ of mandamus sought to compel the
defendants to, among other things, revise her
performance appraisal, provide personnel training at
Lackland, take disciplinary action against various
military personnel, and restore benefits including in­
grade steps and promotions. Based on all of that, the
district court correctly concluded that adjudicating
Neville’s claims would require the court to review
questions of military decision-making barred by the
Feres doctrine.
III. Whether the district court erred when it did
not order separate counsel for the EEOC given
the alleged inherent conflict of interest.
Neville asserts that the district court abused
its discretion by not ordering separate counsel for the
EEOC because the EEOC and the other agencies
involved had differing positions,
The federal
defendants, including the EECO, dispute the claim
that the Department of Justice or the Attorney

17a
General cannot represent multiple federal agencies
simultaneously and assert that there is no conflict of
interest.
Neville cites Rule 1.06 of the Texas
Disciplinary Rules of Professional Conduct for the
proposition that an attorney cannot represent two
parties whose interests are materially and directly
adverse to each other. She asserts that the EEOC is
seeking to enforce its judgment against defendants
who argue the EEOC never had jurisdiction to decide
it in the first place. However, the EEOC argues that
once she filed her petition, it no longer had an
obligation to attempt enforcement.
The Attorney General has “plenary power over
all litigation to which the United States or one of its
agencies is a party.” Marshall v. Gibson’s Prod., Inc.
of Plano, 584 F.2d 668, 676 n.ll (5th Cir. 1978).
Neville has failed to provide any evidence that the
Texas rules somehow override this. Thus, Neville has
failed to demonstrate any abuse of discretion on this
issue.
Accordingly, for the reasons set out herein, we
AFFIRM.

18a
FILED: JUNE 28, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT

No. 18-50438
D.C. Docket No. 5:16-CV-1231
TINA NEVILLE,
Plaintiff - Appellant
v.
VICTORIA LIPNIC, Acting Chair of the U.S.
Equal
Employment
Opportunity
Commision;
PATRICK M. SHANAHAN, ACTING SECRETARY,
U.S. DEPARTMENT OF DEFENSE; HEATHER
WILSON, Secretary of the Air Force; GENERAL
JOSEPH L. LENGYEL, Chief, National Guard
Bureau;JOHN F. NICHOLS, Major, Adjutant
General-Texas Military,
Defendants - Appellees
Appeal from the United States District Court
for the Western District of Texas
Before CLEMENT, GRAVES and OLDHAM, Circuit
Judges.
JUDGMENT
This cause was considered on the record on
appeal and was argued by counsel.

19a
It is ordered and adjudged that the judgment
of the District Court is affirmed.
IT IS FURTHER ORDERED that plaintiffappellant pay to defendants-appellees the costs on
appeal to be taxed by the Clerk of this Court.

20a
FILED: AUGUST 30, 2019
IN THE UNITED STATES COURT OF APPEALS
FOR THE FIFTH CIRCUIT
No. 18-50438
TINA NEVILLE,
Plaintiff — Appellant
v.
VICTORIA LIPNIC, Acting Chair of the U.S. Equal
Employment Opportunity Commission; PATRICK M.
SHANAHAN,
ACTING
SECRETARY,
U.S.
DEPARTMENT
OF
DEFENSE;
HEATHER
WILSON, Secretary of the Air Force; GENERAL
JOSEPH L. LENGYEL, Chief, National Guard
Bureau; JOHN F. NICHOLS, Major, Adjutant
General-Texas Military,
Defendants - Appellees
Appeal from the United States District Court for the
Western District of Texas
ON PETITION FOR REHEARING EN BANC
(Opinion June 28, 2019, 5 Cir..
Before CLEMENT,
Circuit Judges.

GRAVES,

F.3d
and

OLDHAM,

21a
PER CURIUM:
( )

Treating the Petition for Rehearing En Bane
as a Petition for Panel Rehearing, the Petition
for Panel Rehearing is DENIED. No member
of the panel nor judge in regular active
service of the court having requested that the
court be polled on Rehearing En Bane (FED.
R. APP. P. and 51 n CIR. R. 35), the Petition
for Rehearing En Bane is DENIED.

( )

Treating the Petition for Rehearing En. Bane
as a Petition for Panel Rehearing, the Petition
for Panel Rehearing is DENIED. The court
having been polled at the request of one of the
members of the court and a majority of the
judges who are in regular active service and
not disqualified not having voted in favor
(FED. R. APP. P. and 5TH ClR. R. 35), the
Petition for Rehearing En Bane is DENIED.
ENTERED FOR THE COURT:
/s/ James E. Graves. Jr.
UNITED STATES CIRCUIT JUDGE

22a
FILED: MARCH 29, 2018
UNITED STATES DISTRICT COURT
WESTERN DISTRICT OF TEXAS
SAN ANTONIO DIVISION
TINA NEVILLE,

§ No. 5:16-CV§ 1213-DAE
§
Petitioner,
§
§
vs.
§
§
VICTORIA LIPNIC, in Her Official §
Capacity as Acting Chair of the
§
United States Equal Employment §
Opportunity Commission, et al.,
§
§
§
Respondents.
ORDER: (1) GRANTING RESPONDENTS’
MOTIONS TO DISMISS AND ALTERNATIVE
MOTIONS FOR SUMMARY JUDGMENT (DKTS.
## 61, 63, 64); (2) DENYING PETITIONER’S
MOTION FOR SUMMARY JUDGMENT AND
ALTERNATIVE MOTION FOR DIRECTED
VERDICT (DKT. # 66); AND (3) INSTRUCTING
THE CLERK’S OFFICE TO ENTER JUDGMENT
AND TO CLOSE THIS CASE
Before the Court are four motions: (1) a Motion
to Dismiss and Alternative Motion for Summary
Judgment filed by Victoria Lipnic, in her official
capacity as the Acting Chair of the United States
Equal Employment Opportunity Commission (the

23a
“EEOC”) on March 6, 2017 (Dkt. # 64); (2) a Motion to
Dismiss and Alternative Motion for Summary
Judgment filed by Defendants Jim Mattis, Secretary
of the United States Department of Defense (the
“DoD”), Heather Wilson, Secretary of the United
States Air Force (the “USAF”),1 and General Joseph
L. Lengyel, Chief of the National Guard Bureau (the
“NGB”) (collectively, “Federal Respondents”), on
March 6, 2017 (Dkt. # 63); (3) a Motion to Dismiss and
Alternative Motion for Summary Judgment filed by
Defendant Major General John F. Nichols, Adjutant
General of the Texas National Guard (the “TXNG” or
“State Respondent”), on March 6, 2017 (Dkt. #61);
and (4) a Motion for Summary Judgment and
Alternative Motion for Directed Verdict filed by
Petitioner Tina Neville (“Petitioner” or “Neville”) on
March 7, 2017 (Dkt. # 66).
On November 20, 2017, this Court held a
hearing on the parties’ motions. At the hearing,
Michael D.J. Eisenberg, Esq. represented Petitioner,
Joseph C. Rodriguez, Esq. represented the EEOC,
Joseph C. Rodriguez, Esq. represented Federal
Respondents, and Matthew A. Deal, Esq. represented
State Respondent. The motions are fully briefed and
ripe for review.
After careful consideration of the memoranda
and exhibits filed in support of and in opposition to
the motions, as well as the arguments advanced at the
hearing, the Court—for the reasons that follow—(1)
GRANTS the EEOC’s Motion to Dismiss and
Alternative Motion for Summary Judgment (Dkt. #
1 Heather Wilson automatically substituted Lisa Disbrow as the
respondent for the USAF pursuant to Federal Rule of Civil
Procedure 25(d).

24a
64); (2) GRANTS Federal Respondents’ Motion to
Dismiss and Alternative Motion for Summary
Judgment (Dkt. # 63; (3) GRANTS State
Respondent’s Motion to Dismiss and Alternative
Motion for Summary Judgment (Dkt. # 61); and (4)
DENIES Neville’s Motion for Summary Judgment
and Alternative Motion for Directed Verdict (Dkt. #
66). The Clerk’s Office is INSTRUCTED to ENTER
JUDGMENT and to CLOSE THIS CASE.
BACKGROUND
I.

Overview

Underlying these motions is an Amended
Petition for Writ of Mandamus (“the Amended Writ
Petition”) filed by Neville on March 22, 2016, in the
United States District Court for the District of
Columbia. (“Am. Pet.,” Dkt. # 32.) Broadly, Neville
seeks a writ of mandamus compelling: (1) the EEOC
to enforce a final decision on a Petition for
Enforcement (“PFE”) that it issued in July 2015; or
(2) Federal Respondents and/or State Respondent to
comply with the 2015 PFE. (Id.)
II.

Factual Background

At all relevant times, Petitioner was employed
as a Dual-Status National Guard Technician (“DualStatus Technician”) at Lackland Air Force Base in
San Antonio, Texas. (Id. at 1-2.)
Dual-Status
Technicians are by statute “employee [s] of the . . .
Department of the Air Force . . . and [civilian]
employee[s] of the United States.” 32 U.S.C.
§ 709(e).2 As a condition to their civilian employment,
2 2 Section 709 states in relevant part:

25a
a Dual-Status Technician must become and remain a
uniformed member of the National Guard. See 32
U.S.C. §§ 709(b), (d)—(e). According to Neville, if for
any reason she lost her affiliation with the National
Guard, within 30 days she would also lose her civilian
position. (Am. Pet. at 2.) At the time the events giving
rise to this action occurred, Neville served in a civilian
capacity as a WG-12 Aircraft Mechanic and in a
military capacity as an Air Force Master Sergeant
(“MSgt.”) in the 149th Fighter Wing at Lackland Air
Force Base. (Id. at 3.)
In March 2006, Neville had a hysterectomy, at
which point endometrial tissue was discovered and
removed from some of her internal organs. (Id. at 4.)
Over the subsequent year and as a result of
complications from this surgery, she submitted
documentation to her supervisor from her physicians
that ordered her to work on light duty. (Id.) Despite
(a) Under regulations prescribed by the Secretary of the
Army or the Secretary of the Air Force, as the case may
be, and subject to subsection(b) of this section persons
may be employed as technicians [.]
(b) A technician employed under subsection (a) shall,
while so employed ... (1) be a member of the National
Guard[.]
(c) The Secretary concerned shall designate the
adjutants general referred to in section 314 of this title,
to employ and administer the technicians authorized by
this section.
(d) A technician employed under subsection (a) is an
employee of the Department of the Army or the
Department of the Air Force[.]
(e) Notwithstanding any other provision of law and
under regulations prescribed by the Secretary
concerned!.]
32 U.S.C. §§ 709(a)-(e).

26a
being on “light duty,” Neville alleges that her new
supervisor continued to assign her to full duty work
because “guys don’t have hysterectomies.” (Id.: see
also “2013 OFO Decision,” Dkt. # 65-7, Ex. F at 2.)
On June 25, 2007, despite her continued “light
duty” status, Neville’s supervisor—Master Sergeant
(“MSgt”) Pedro Soriano (“Soriano”)—purportedly
assigned her the full duty task of airplane recovery
and tank reconfiguration. (Am. Pet. at 5.) While
attempting to remove a 20-pound ladder leaning
against an airplane, Neville maintains that she
experienced a sudden sharp pain in her back and knee
due to a lack of stomach muscle support from the
surgery. (Id.) Afterwards, Neville took a medical leave
of absence from June 25 or 26, 2007, to May 12, 2008.
(Id.: see also 2013 OFO Decision at 2; “2011 ALJ
Decision,” Dkt. # 62-1 at 10, 33.)
On June 26, 2007, Neville received a
performance evaluation from Soriano. (Am. Pet. at 5.)
Neville alleges that, while the wording of this
appraisal was nearly identical to her 2005-2006
evaluation where she received “Outstanding” ratings,
on this appraisal she only received a rating of “Fully
Successful.” (Id.) Neville claims she questioned
Soriano about this critique and, in response, Soriano
purportedly replied that he would not give an
“outstanding” rating to employees who he and “the
guys did not respect.” (Id.: see also 2013 OFO
Decision at 2.)
Following her injury, Neville filed a claim with
the Department of Labor’s (“DOL”) Office of Workers’
Compensation Program (“OWCP”) for a right knee
and lower back sprain, which the DOL accepted. (2011

27a
ALJ Decision at 10.) Neville claims that, although she
received her regular base salary (“Continuation of
Pay” or “COP”) for the requisite 45 days after she was
injured, she did not begin to receive OWCP benefits
until January 2008. (Id.)
On May 12, 2008, Neville returned to work in a
light duty status. (Id. at 33.) Although Neville
received a light duty position upon returning to work,
she believed the modified position exceeded her
physical limitations. (Id.) Neville claims that, as a
result, she stopped reporting to work on August 26,
2008.
(Id.) On November 6, 2008, the OWCP
terminated Neville’s benefits on the grounds that she
had abandoned suitable work offered by her employer
without any justification. (Id.) In January 2009,
Neville took disability retirement and retired from her
military and civilian positions at the TXANG. (2011
ALJ Decision at 34.)
III.

Administrative Procedural Background
A.

2011 ALJ Decision

On November 13, 2007, Neville filed an EEOC
complaint alleging that the USAF and the NGB
discriminated against her on the basis of sex (female).
and disability (complications from hysterectomy
surgery). (Am. Pet. at 5; see also “Discrim. Compl.,”
Dkt. # 62-3, Ex. 3.) On January 26, 2011, after several
hearings, an EEOC Administrative Law Judge
(“ALJ”) issued a decision (“2011 ALJ Decision”)3
finding that Neville had established that she had been
subjected to gender discrimination when: (1) on June
25, 2007, Soriano refused to honor her request for
3 (Dkt. #62-1, Ex. 1.)

28a
light duty, resulting in knee and back injuries; and (2)
on June 26, 2007, Soriano issued an annual
performance appraisal rating of “Fully Successful”
instead of “Outstanding” to Neville. (Am. Pet. at 5; see
also 2011 ALJ Decision at 32.) Further, the ALJ
found that Neville failed to establish that she had
been subjected to disability discrimination. (2011 ALJ
Decision at 24.) As a point of clarification, the ALJ
noted that its finding that Neville failed to establish
“disability [discrimination] was irrelevant to the issue
of whether the [TXANG] discriminated against her
when it failed to accommodate her request for light
duty.” (Id. at 24 n.14.)
In the 2011 ALJ Decision, as a result of the
gender-based discrimination, the ALJ ordered relief
in the form of: (1) back pay with interest and benefits;
(2) non-pecuniary compensatory damages for the
emotional and physical harm she suffered as a result
of the gender discrimination; and (3) attorneys’ fees
and costs in the amount of $63,675.03. (Am. Pet. at
6.) The ALJ also ordered the NGB to amend Neville’s
2006-2007 performance appraisal. (Id-) Finally, the
ALJ ordered the NGB to provide EEO training, post a
notice of discrimination for 12 months, and
recommended that the NGB take disciplinary action
against Soriano. (Id.)
B.

2013 OFO Decision

On August 1, 2013, the EEOC’s Office of
Federal Operations (“OFO”) issued a final decision
(the “2013 OFO Decision”) regarding the appeal. (See
generally 2013 OFO Decision; Scott v. Johanns. 409
F.3d 466, 468 (D.C. Cir. 2005) (noting that “OFO’s
decision amounts to a final disposition, triggering the

29a
right to sue”); see also 29 C.F.R. § 1614.405. The 2013
OFO Decision, inter alia: (1) upheld the ALJ’s decision
finding of gender discrimination; (2) ordered an
increased non-pecuniary award of $150,000 be paid to
Neville within 60 days; (3) ordered the NGB to provide
Neville back pay for the period between June 25, 2007,
and August 26, 2008, as well as attorneys’ fees and
other remedial actions within 60 days; (4) ordered the
NGB to amend Neville’s 2006-2007 performance
within 60 days; (5) ordered the NGB to provide Title
VII training to all management officials at Lackland
Air Force Base; (6) ordered the NGB to take
disciplinary action against responsible management
officials; and (7) ordered the NGB to post a notice of
discrimination. (Am. Pet. at 3, 6, 8; see also 2013 OFO
Decision at 11-14.)
The 2013 OFO Decision outlined Title VII
jurisdiction regarding Dual-Status Technicians under
both the EEOC’s previous decisions and federal court
decisions. (Am. Pet. at 6.) Specifically, the 2013 OFO
Decision noted that the case-by-case determination of
whether a personnel action arose during a DualStatus Technician’s military or civilian capacity “is a
factual determination that must be made by the
Commission for the purpose of deciding whether the
Commission has jurisdiction in a particular case.” (Id.
at 6—7; see also 2013 OFO Decision at 5.) Per Neville,
the 2013 OFO Decision then found that the record
clearly established that gender discrimination
occurred while she was in her federal civilian capacity
during the workweek in her Aircraft Mechanic
position, not during her weekend drill capacity in the
National Guard. (Am. Pet. at 7.) Of relevance, the
2013 OFO Decision affirmed that Neville was on
“light duty” for her civilian work and that she was

30a
injured while maintaining aircraft in her civilian
position. (Id.) According to the 2013 OFO Decision,
both the discriminatory performance appraisal and
the gender-based harassment occurred while she was
working as a civilian mechanic, and her supervisor
and co-workers committed the discrimination in their
civilian capacities. (Id. at 8.) The 2013 OFO Decision
states that “compliance with the Commission’s
corrective action is mandatory.” (Id.: see also 2013
OFO Decision at 11.) The 2013 OFO Decision
instructed the NGB that it had 60 days to comply with
the decision.
On October 21, 2013, after the 60-day
compliance deadline imposed by the 2013 OFO
Decision, Major General John F. Nichols, Adjutant
General of the Texas National Guard, sent Neville a
letter indicating that, under his authority pursuant to
32 U.S.C. § 709, the EEOC does not have jurisdiction
over Neville’s complaint. (Am. Pet. at 8: see also “Mai.
Gen. Letter,” Dkt. # 62-7, Ex. 7.) His letter stated that
the ALJ’s and the OFO’s determinations of
jurisdiction were improper. (Am. Pet. at 8.) The letter
stated that he would order a military investigation
and render a decision as to Neville’s complaint, as well
as allow Neville an opportunity to respond, before he
made “a final decision from which no further appeal is
authorized.” (Id. at 9.)
C.

2015 PFE Decision

Neville claims that, due to the USAF’s, NGB’s,
and TXANG’s “blatant disregard” of the 2013 OFO
Decision, she filed a petition for enforcement (“PFE”)
of the order with the EEOC on December 17, 2013.
(Id. (citing 29 C.F.R. § 1614.503(a)).) On July 2, 2015,

31a
one day after Neville filed her original petition for writ
of mandamus in federal court, the EEOC issued its
2015 PFE Decision, and for the third time, found that:
(1) at the time of the events underlying Neville’s
claims, she was acting as a federal civilian employee
under the protection of Title VII; (2) the TXANG is a
federal executive agency for purposes of Title VII; and
(4) the TXANG discriminated against Neville based
on her gender. (Am. Pet. at 9; see also 2015 PFE
Decision at 5-16.)
In addition to the requirements of the 2013
OFO Decision, the 2015 PFE Decision ordered the
TXANG to: (1) pay Neville $150,000 in non-pecuniary
compensatory damages, as well as $63,675.03 in
attorneys’ fees and costs, within 30 days; (2)
compensate Neville for all back-pay, with interest and
benefits, for the time between June 25, 2007 and
August 26, 2008, within 30 days; (3) calculate and
compensate Neville for any overtime; (4) amend
Neville’s 2006-2007 performance appraisal; and (7)
provide at least 16 hours of in-person training to all
management officials and employees at Lackland Air
Force Base, 149th Fighter Wing, Flight Line Section,
regarding Title VII responsibilities. (Am. Pet. at 9-10;
see also 2015 PFE Decision at 13-14.) Further, the
2015 PFE Decision ordered the DoD, as head of the
NGB and the USAF, to: (1) consider taking
appropriate disciplinary measures against the
responsible management officials and coworkers
involved in harassing Neville; and (2) to post a notice
of discrimination. (Id. at 9-10; see also 2015 PFE
Decision at 13-14.)
Finally, the 2015 PFE Decision stated that, if
the agencies failed to comply, then Neville “has the

32a
right to file a civil action to enforce compliance with
the Commission’s order prior to or following an
administrative petition for enforcement.” (2015 PFE
Decision at 15 (citing 29 C.F.R. §§ 1614.407, 1614.408,
1614.503(g).) It is undisputed that there has been no
compliance with the 2011 ALJ Decision, the 2013
OFO Decision, or the 2015 PFE Decision. (See
generally Dkt. # 32.)
D.

Respondents’ Positions

The parties generally do not dispute Neville’s
characterization of the factual and procedural posture
of the case. For example, State Respondent states,
inter alia, that it “declined to implement” the 2013
OFO Decision on jurisdictional grounds based on its
belief that Neville’s writ petitions arise from her
service as a Dual-Status Technician. (Dkt. # 61 at 8.)
State Respondent notes that, while the OFO rejected
these jurisdictional arguments and issued a decision
ordering relief in favor of Neville, Maj. Gen. Nichols
properly determined that, under his military
authority, the allegations in Neville’s Title VII
complaint arose from military aspects of her daily
duties as an F-16 crew chief. (Id.) Accordingly, State
Respondent ordered a military investigation within
the National Guard’s Military Discrimination
Complaint System, which was not appealable beyond
that office and which found that Neville’s
discrimination claims were unsubstantiated. (Id. at
9.) State Respondent maintains that it also declined
to comply with the subsequent 2015 PFE Decision for
the same jurisdictional reasons. (Id.) Finally, State
Respondent indicates that it notified the EEOC that
it would not be enforcing the Decisions. (See, e.g.. “TXTAG Letter to EEOC,” Dkt. # 62-8, Ex. 8).)

33a
Similarly, Federal Respondents—the DoD, the
USAF, and the NGB—indicate that they too declined
to enforce the 2013 OFO Decision because Maj. Gen.
Nichols of the Texas National Guard informed the
agencies that he would not implement the Decisions.
(“Fact App’x,” Dkt. # 63-1 at 10-13; see also generally
Maj. Gen. Letter; TX-TAG Letter to EEOC.) Federal
Respondents state that they appealed the 2011 ALJ
Decision to the EEOC on jurisdictional grounds,
arguing that Neville’s claims arose from her military
position. (Fact App’x at 11.) Additionally, Federal
Respondents argued that the relief ordered in the
2015 ALJ decision violated the Eleventh Amendment
because the TXANG is an entity of the State of Texas
protected by sovereign immunity. (Id.) Similarly,
Federal Respondents indicate that they declined to
enforce the 2015 PFE Decision for the same
jurisdictional reasons, and because, in March 2015,
Maj. Gen. Nichols’ military investigation determined
that Neville’s allegations were “unsubstantiated” or
were “[bjeyond the scope of the Air National Guard
Discrimination Complaint System.” (Id. at 13.)
In a slightly different vein, the EEOC argues in
part that—although Neville had a clear right to file
her Original Writ Petition in federal court because the
EEOC undisputedly took more than 180 days to rule
on her PFE—initiating the civil action for mandamus
relief before the 2015 PFE Decision issue effectively
terminated the EEOC administrative process. (Dkt. #
64 at 3.) While the EEOC issued the 2015 PFE
Decision on July 2, 2015, one day after Neville filed
the instant action, the EEOC maintains that “any
alleged right [Neville] had to require that the EEOC
enforce its orders ceased when she filed her lawsuit,”

34a
and therefore, a writ of mandamus against the EEOC
should not issue. (Id. at 3-6.)

IV.

The Instant Action
A.

Neville’s Amended Writ Petition

On March 22, 2016, Neville filed an Amended Writ
Petition in the United States District Court for the
District of Columbia to enforce compliance with the
directives in the 2013 OFO Decision and subsequent
2015 PFE Decision. (Dkt. # 32.) Neville seeks a writ
of mandamus against the EEOC or, alternatively,
Federal Respondents and State Respondent. (Id.)
Neville seeks a writ of mandamus against the
EEOC, compelling the EEOC to: (1) enforce the 2013
OFO Decision and 2015 PFE Decision against Federal
Respondents and State Respondent; (2) recalculate
Neville’s back pay, attorney’s fees, costs, benefits, and
pecuniary award with accrued interest (for Federal
Respondents’ and State Respondent’s purported
unreasonable delay); and (3) pay Neville’s attorneys’
fees and costs related to the instant action. (Am. Pet.
at 17-18.)
In the alternative, Neville seeks a writ of
mandamus against Federal Respondents and/or State
Respondent, compelling them to: (1) respond to the
2015 PFE Decision, specifying how Federal
Respondents and State Respondent will comply with
the 2013 OFO Decision and 2015 PFE Decision; (2)
recalculate Neville’s back pay and benefits with
accrued interest for their unreasonable delay; and (3)
pay Neville’s attorneys’ fees and costs related to the
instant action. (Id. at 18.)

35a
B.

Transfer from the District of Columbia

On November 23, 2016, the Honorable Ketanji
Brown Jackson found that venue was improper in the
District of Columbia. (Dkt. # 50.) Thus, on December
5, 2016, the entire case was transferred to this Court,
where venue is proper and undisputed. (Dkt. #51.)
Due to the complexity of the case and the multiple
parties in the action, on December 6, 2016, the Court
dismissed all then-pending motions without prejudice
to re-filing in the interests of efficient case
management. (Dkt. #53.)

C.

Pending Motions

On March 6, 2017, the EEOC, Federal Respondents,
and State Respondent (collectively, “Respondents”)
separately filed Motions to Dismiss Under Federal
Rules of Civil Procedure 12(b)(1) and 12(b)(6) and
Alternative Motions for Summary Judgment. (Dkts.
## 61, 63, 64.) That same day, Neville filed a Motion
for Summary Judgment and Alternative Motion for
Directed Verdict. (Dkt. # 66.)
LEGAL STANDARD
I.

Dismissal Under Rule 12(b)(1)

Rule 12(b)(1) of the Federal Rules of Civil Procedure
authorizes dismissal of a complaint for lack of subject
matter jurisdiction. Home Builders Ass’n of Miss., Inc,
v. City of Madison. Miss.. 143 F.3d 1006, 1010 (5th
Cir. 1998); see Fed. R. Civ. P. 12(b)(1). Under Rule
12(b)(1), a Court may dismiss a suit “for lack of subject
matter jurisdiction on any one of three separate bases:
(1) the complaint alone; (2) the complaint
supplemented by undisputed facts evidenced in the

36a
record; or (3) the complaint supplemented by
undisputed facts plus the court’s resolution of
disputed facts.” Freeman v. United States. 556 F.3d
326, 334 (5th Cir. 2009) (quoting Williamson v.
Tucker, 645 F.2d 404, 413 (5th Cir. 1981)). “Once a
defendant files a motion to dismiss under Rule
12(b)(1) and challenges jurisdiction, the party
invoking jurisdiction has the burden to establish ~
subject matter jurisdiction.” Arnold v. McHugh. No.
5:15-CV-210, 2016 WL 5661641, at *2 (E.D. Tex. Sept.
30, 2016) (citing Menchaca v. Chrysler Credit Corn.,
613 F.2d 507, 511 (5th Cir. 1980)). “Courts only grant
motions to dismiss when it is clear the claimant can
prove no set of facts in support of its claims that would
entitle it to relief.” Arnold, 2016 WL 5661641, at *2.
“When a Rule 12(b)(1) motion is filed in
conjunction with other Rule 12 motions, the court
should consider the Rule 12(b)(1) jurisdictional attack
before addressing any attack on the merits.”
Ramming v. United States. 281 F.3d 158, 161 (5th Cir.
2001) (quoting Hitt v. City of Pasadena, 561 F.2d 606,
608 (5th Cir. 1977) (per curiam)). Under Rule
12(b)(1), the party asserting jurisdiction has the '
burden of proof. Id.
II.

Dismissal Under Rule 12(b)(6)

Rule 12(b)(6) of the Federal Rules of Civil
Procedure authorizes dismissal of a complaint for
failure to state a claim upon which relief may be
granted. Fed. R. Civ. P. 12(b)(6). In determining
whether a complaint should be dismissed under Rule
12(b)(6), the court limits its review to the contents of
the complaint, documents incorporated into the
complaint by reference, and matters properly subject

37a
to judicial notice. See Tellabs, Inc, v. Makor Issues &
Rights. Ltd.. 551 U.S. 308, 322 (2007). When
evaluating the complaint, “[t]he court accept [s] ‘all
well-pleaded facts as true, viewing them in the light
most favorable to the plaintiff.”’ In re Katrina Canal
Breaches Litig.. 495 F.3d 191, 205 (5th Cir. 2007)
(quoting Martin K. Ebv Constr. Co. v. Dali. Area
Rapid Transit. 369 F.3d 464, 467 (5th Cir. 2004)).
To survive a Rule 12(b)(6) motion to dismiss,
the plaintiff must plead “enough facts to state a claim
to relief that is plausible on its face.” Bell Atl. Corp.
v. Twomblv. 550 U.S. 544, 570 (2007). “A claim has
facial plausibility when the plaintiff pleads factual
content that allows the court to draw the reasonable
inference that the defendant is liable for the
misconduct alleged.” Ashcroft v. Iqbal. 556 U.S. 662,
678 (2009) (citing Twomblv. 550 U.S. at 556). The
inquiry is whether all facts alleged, taken collectively
instead of viewed in isolation, state a plausible claim
for relief. Tellabs. 551 U.S. at 325.
DISCUSSION
For the reasons stated below, the Court does
not have jurisdiction over Neville’s mandamus claims
against the EEOC, Federal Respondents, and State
Respondent. The Court therefore grants the EEOC’s,
Federal Respondents’, and State Respondent’s
Motions to Dismiss and Alternative Motions for
Summary Judgment (Dkts. ## 61, 63, 64), and denies
Neville’s Motion for Summary Judgment and
Alternative Motion for Directed Verdict (Dkt. # 66).

38a
I.

The EEOC’s Motion to Dismiss and Alternative
Motion for Summary Judgment (Dkt. # 64)
A.

Mandamus Claim Against the EEOC

The Court first addresses the mandamus claim
against the EEOC. As the writ is one of “the most
potent weapons in the judicial arsenal,” Will v. United
States, 389 U.S. 90, 107 (1967), “[mjandamus may
only issue when (1) the plaintiff has a clear right to
relief, (2) the defendant has a clear duty to act, and (3)
no other adequate remedy exists.” Randall D. Wolcott,
M.D., P.A. v. Sebelius, 635 F.3d 757, 768 (5th Cir.
2011). “Even when a court finds that all three
elements are satisfied, the decision to grant or deny
the writ remains within the court’s discretion because
of the extraordinary nature of the remedy.” Id.
The EEOC argues, inter alia, that mandamus
should not issue because the EEOC does not have a
clear nondiscretionary duty to attempt to obtain an
agency’s compliance with a final EEOC decision after
the employee has filed a civil action for enforcement
in federal court. (Dkt. # 64.) The EEOC claims that
when Neville filed this mandamus action, she
effectively terminated the administrative process. (Id.
at 3.) The EEOC asserts that, since any obligation the
EEOC had to enforce its decision ceased when Neville
filed the instant suit for mandamus, it does not have
a clear duty to act. Thus, the EEOC contends that
mandamus should not issue and Neville’s mandamus
claim against the EEOC should be dismissed. (Id. at
3-6.) The Court agrees.
A plaintiff who prevails at the EEOC level “may
petition the [EEOC] for enforcement” of its decision, if
the plaintiff believes “that the agency is not complying

39a
with the decision.” 29 C.F.R. § 1614.503. If the EEOC
finds that the agency is not complying with the
decision, the EEOC must attempt to obtain
compliance. Id. Additionally, a plaintiff may either:
(1) file a civil action in federal court to enforce
compliance with the order before or after an
administrative petition for enforcement, or (2) file a
de novo civil action on the underlying discrimination
claim. See 42 U.S.C. § 2000e-16(c); Massingill v.
Nicholson. 496 F.3d 382, 384 (5th Cir. 2007); see also
29 C.F.R. §§ 1614.407, 1614.503(g).
The EEOC’s obligation to “attempt to obtain
compliance” with the 2013 OFO Decision and 2015
PFE Decision ceased when Neville filed this suit for
mandamus. As noted supra, Plaintiff filed a petition
for enforcement with the EEOC, but after the EEOC
failed to issue a decision within 180 days of the date
of the petition, Neville filed the instant suit for
mandamus. (See Dkt. #1.) The filing of a civil action,
either for enforcement or on the underlying
discrimination claim, terminates all EEOC action on
the complaint, including any petition for enforcement.
See 29 C.F.R. §§ 1614.107(a)(3), 1614.409, 1614.410;
Walch v. Adjutant Gens. Den’t of Tex.. 533 F.3d 289,
304 n.7 (5th Cir. 2008) (“A federal employee’s election
to pursue Title VII claims in federal court after the
passage of 180 days with no final agency action
usually mandates the dismissal of his EEO complaint,
and precludes the EEOC from entertaining an appeal
of that dismissal.”).
Because the EEOC does not have a duty to
obtain compliance with the 2013 OFO Decision or
2015 PFE Decision, Neville’s mandamus claim
against the EEOC fails. Thus, the Court GRANTS the

40a

EEOC’s Motion to Dismiss and Alternative Motion for
Summary Judgment. (Dkt. # 64.) Since Plaintiff has
failed to state a claim of mandamus against the
EEOC, the Court need not address the EEOC’s other
arguments as to this claim.
B.

Title VII Claim

Neville asserts for the first time in her response in
opposition to the EEOC’s motion that the EEOC
deprived her of her rights under Title VII.4 (Dkt.# 83
at 7-8.) To the extent that Neville is attempting to
invoke Title VII as a jurisdictional basis for suing the
EEOC, she cannot do so. The Fifth Circuit has
repeatedly held that Title VII does not confer on a
charging party a right of action against the EEOC.
See, e.g., Newsome v. E.E.O.C.. 301 F.3d 227, 232 (5th
Cir. 2002); Gibson v. Miss. Pac. R.R., 579 F.2d 890,
891 (5th Cir. 1978) (“Title VII . . .confers no right of
action against the enforcement agency. Nothing done
or omitted by EEOC affected [plaintiffs] rights. Their
adverse determination could not have precluded, and
in fact did not preclude, the present suit by [plaintiff].
The relief sought of further investigation or action by
the agency would be meaningless.”). To the extent
Neville moves to amend her Amended Writ Petition to
add a Title VII claim against the EEOC, her motion is
DENIED. See Patterson v. Def. POW/MIA Accounting
Agency. No. 5:17-CV-467-XR, 2017 WL 5586962, at *4
(W.D. Tex. Nov. 20, 2017) (finding plaintiff did not
state a valid claim against defendants for an alleged
violation of the Fifth Amendment where plaintiff
4 4 It is unclear whether Neville is attempting to proceed under
Title VII or the Administrative Procedures Act (the “APA”). (See
Dkt. # 83 at 7—9.) In applying a broad interpretation to the
motion, this memo addresses the merits of both claims.

41a
raised the new claim for the first time in their
response to defendants’ motion to dismiss); see also
Davis v. DRRF Tr. 2015—1. No. 5:15-CV-880-RP, 2016
WL 8257126, at *3 (W.D. Tex. Jan. 6, 2016) (declining
to consider plaintiffs claim not raised in original
petition, but raised for first time in response to motion
to dismiss); Hearn v. Deutsche Bank Nat’l Trust Co..
No. 3:13-CV-2417-B, 2014 WL 4055473, at*4 (N.D.
Tex. Aug. 15, 2014) (“[W]hen considering a motion to
dismiss, the Court generally only relies on the
allegations made in the pleadings, and does not base
its decision on allegations raised for the first time in .
. . the plaintiffs response.”); Schieroni v. Deutsche
Bank Nat’l Trust Co.. No. H-10-CV-663, 2011 WL
3652194, at *6 (S.D. Tex. Aug. 18, 2011) (“[N]ew
allegations cannot be raised in response to a motion to
dismiss.”).
C.

APA Claim

In addition to the Title VII claim, Neville seeks
to assert for the first time a claim under the APA. (See
at Dkt. # 83 at 7-8 n.3.) In a footnote, Neville requests
leave to filed a Second Amended Writ Petition,
stating:
[i]f necessary, [Neville], through Counsel,
would ask for leave to amend her complaint to
include a violation of the APA. The
Respondents have been given ample notice
pursuant to the [Federal Rules of Civil
Procedure] in her [Original and Amended Writ
Petition] that the undue delay is a violation of
the APA. Moreover, all pleadings should be
liberally construed.
(Id. at 8 n.3.)

42a
Neville’s request for leave to amend is denied
for two reasons. First, Neville’s request does not
comply with Local Rule CV-7(b) (“Rule CV-7(b)”). Rule
CV-7(b) provides:
(b) Leave to File. When a motion for leave to
file a pleading, motion, or other submission is
required, an executed copy of the proposed
pleading, motion, or other submission shall be
filed as an exhibit to the motion for leave.
Unless otherwise ordered, if the motion for
leave is granted, the clerk shall promptly file
the pleading, motion, or other submission.
After leave is granted, any applicable time
limits triggered by the pleading, motion, or
other submission shall run from the filing of the
pleading, motion, or other submission by the
clerk or otherwise.
Local Rule CV-7. A request for leave to amend,
embodied in a footnote, clearly does not comply with
the mandates set forth in Local Rule CV-7.
In any event, Plaintiff did not demonstrate
“good cause” to amend the scheduling order so that
she could file an amended petition for writ of
mandamus after the deadline for filing amended
pleadings expired. The deadline to amend the
pleadings was February 1, 2017. (Dkt. # 60.) Because
the deadline for the parties to file amended pleadings
has passed, Neville must file a motion for leave to file
a Second Amended Writ Petition and show “good
cause” for modifying the scheduling order under
Federal Rule of Civil Procedure Rule 16. See Fed. R.
Civ. P. 16(b)(4) (stating that a petitioner must show
“good cause” to modify a scheduling order); S&W

43a
Enter., L.L.C. v. S. Trust Bank of Ala.. NA. 315 F.3d
533, 536 (5th Cir. 2003) (“Rule 16(b) governs
amendment of pleadings after a scheduling order
deadline has expired.
Only upon the movant’s demonstration of good
cause to modify the scheduling order will the more
liberal standard of Rule 15(a) apply to the district
court’s decision to grant or deny leave.”). “[T]he four
factors relevant to good cause are: (1) the explanation
for the failure to timely move for leave to amend; (2)
the importance of the amendment; (3) potential
prejudice in allowing the amendment; and (4) the
availability of a continuance to cure such prejudice.”
Rios v. City of Conroe. 674 F. App’x 366, 368 (5th Cir.
2016). Neville has failed to satisfy any of the four
factors. Neville does not explain why she failed to
timely move for leave to amend, the importance of the
amendment, or even consider the potential prejudice
in allowing the amendment.
(See Dkt. # 60.)
Accordingly, Neville’s request for leave to file a Second
Amended Writ Petition is DENIED.
II.

Federal Respondents’ and State Respondent’s
Motions to Dismiss and Alternative Motions for
Summary Judgment (Dkts. ## 63. 61)

The Court now turns to the mandamus claims
against Federal Respondents and State Respondent.
Federal Respondents move to dismiss the mandamus
claims under the Feres doctrine of intra-military
immunity. (Dkt. # 63 at 14-18.) The Feres doctrine of
intra-military immunity precludes members of the
armed forces of the United States from pursuing
claims against the military or United States for
injuries that arose out of or in the course of activity

44a
incident to military service. Feres v. United States.
340 U.S. 135, 146 (1950). Federal Respondents claim
that the mandamus claims are barred under the Feres
doctrine because Neville’s claims arose out of or in the
course of activity incident to her military service. (See
Dkt. # 63 at 6.) Neville, of course, disagrees. Neville
claims that the Feres doctrine is not applicable
because the Title VII claims arose from her position
as a federal civilian employee. (Dkt. # 66.) In support,
Neville notes that, in the 2013 OFO Decision, the ALJ
found:
nothing in the record that.. . indicate [d] any of
the discrimination occurred during [Neville’s]
weekend work in her military capacity.
[Neville] was assigned full duty assignments
instead of light duty assignments while she was
on the flight line attending to returning aircraft
in her civilian [Dual-Status Technician]
position, and she was injured while attending
to returning aircraft in her civil [Dual-Status
Technician] position. The discriminatory
performance evaluation was based on her
civilian [Dual-Status Technician] duties.
Further, the gender-based offensive and
discriminatory comments and demeaning
practical jokes occurred while [Neville]
work[ed]
a
civilian [Dual-Status
as
Technician]. Finally, [Neville’s] supervisor
and co-workers committed the discrimination
while ... in their civilian capacities.
(Id. at 14-15; see 2013 OFO Decision at 4-5.)
For the reasons stated below, the Court finds
that the Feres doctrine of intra-military immunity

45a
bars Neville’s claims against Federal Respondents.
While State Respondent did not raise the Feres
doctrine as an independent basis for dismissal, the
Court also finds that the mandamus claim against
State Respondent is barred under Feres. See Millonzi
v. Adjutant Gens. Den’t of Tex.. No. l:17-CV-488-LY,
2018 WL 283754, at *4 n.5 (W.D. Tex. Jan. 2, 2018)
(finding Title VII claim brought against the Adjutant
General’s Department of Texas non-justiciable under
the Feres doctrine); see also Oliver v. Wong. 158 F.
Supp. 3d 1036, 1042 (D. Haw. 2016) (“The Feres
doctrine is equally applicable to the [Texas] Air
National Guard and its Adjutant General.” (citing
Crout v. Washington. 149 F. App’x 601, 603 (9th Cir.
2005)); Uhl v. Swanstrom. 79 F.3d 751 (8th Cir. 1996)
(applying Feres bar to suit by National Guardsman
against his commanding state officer, the Adjutant
General of the Iowa Air National Guard, and the Iowa
Air National Guard). Because the Feres doctrine
operates as a restraint on the Court’s subject matter
jurisdiction, Neville’s claims against Federal
Respondents and State Respondent are dismissed.
See Morris v. Thompson. 852 F.3d 416, 419 (5th Cir.
2017) (finding that the district court should have
dismissed plaintiffs Title VII for lack of subject
matter jurisdiction because the claim was “nonjusticiable under Feres and this court’s precedents”).
The Feres doctrine has been broadly “construed
to immunize the United States and members of the
military from any suit that might intrude upon
military affairs, second-guess military decisions, or
impair military discipline.” Davidson v. United
States, 647 F. App’x 289, 291 (5th Cir. 2016); see
Walch. 533 F.3d at 296 (explaining that the Feres
doctrine is “premised on the disruptive nature of

46a
judicial second-guessing of military decisions”). The
Supreme Court has explained that, “[ojrderly
government requires that the judiciary be as
scrupulous not to interfere with legitimate [military]
matters as the [military] must be scrupulous not to
intervene in judicial matters.” Chappell v. Wallace.
462 U.S. 296, 302 (1983) (quoting Orloff v.
Willoughby. 345 U.S. 83, 93-94 (1953)). In that
regard, the Supreme Court has counseled that
“[civilian courts must, at the very least, hesitate long
before entertaining a suit which asks the court to
tamper with the established relationship between . . .
military personnel and their superior officers; that
relationship is at the heart of the necessarily unique
structure of the Military Establishment.” Chappell.
462 U.S.at 302. “This basic principle inheres in both
Supreme Court and Fifth Circuit decisions involving
suits by members of the military.” Cantu v. Nichols.
No. H-12-CV-0302, 2012 WL 4962115, at *2 (S.D. Tex.
Oct. 16, 2012).
Although Feres dealt with suits under the
Federal Torts Claims Act (the “FTCA”), the Feres
doctrine has been extended to encompass suits
brought by military members under Title VII. See
Brown v. United States. 227 F.3d 295, 299 (5th Cir.
2000). In the Fifth Circuit, the Feres doctrine is
broadly construed to include to Title VII claims
brought by Dual-Status Technicians for injuries
arising out of or in the course of activity incident to
their service in the National Guard. See Schoemer v.
United States. 59 F.3d 26, 29 (5th Cir. 1995) (noting
that “Feres applies both to reservists and National
Guardsmen.”); see also Filer v. Donley. 690 F.3d 643,
648 (5th Cir. 2012) (finding that the Feres doctrine
barred Air Reserve Technician’s Title VII hostile work

47a
environment claim); Millonzi, 2018 WL 283754, at *4
(recommending that Dual-Status Technician’s Title
VII claims be dismissed under Feres).
Generally, the Feres doctrine applies if: (1) the
person was a member of the armed forces of the
United States at the time he or she sustained the
injury; and (2) the injury arose out of or in the course
of an activity incident to military service. Feres, 340
U.S. at 146. The primary issue in this case is whether
Neville’s claims “arose out of or in the course of an
activity incident to military service.” (Dkts. ## 63, 66.)
“The Supreme Court has said that an injury occurs
‘incident to military service’ when it occurs because of
a plaintiffs ‘military relationship with the
Government.’” Fileccia v. Caddo Par. Sch. Bd., No. 15CV-2333, 2017 WL 2350451, at *3 (W.D. La. May 30,
2017) (quoting United States v. Johnson, 481 U.S.
681, 689 (1987)).
Neville claims that the Feres doctrine is not
applicable because the Title VII claims arose from her
position as a federal civilian employee. (Dkt.# 66.)
Federal Respondents dispute that the Title VII claims
arose purely from Neville’s civilian position but argue
that, even if they did, the Feres doctrine bars her
mandamus claims. The Court agrees.
The fact that the incidents occurred while
Neville was nominally serving as a federal civilian
employee does not preclude application of the Feres
doctrine.
“[A] claim may be barred under the
intramilitary immunity doctrine if the action brings
into question command or personnel decisions by
military personnel, notwithstanding the fact that the
plaintiff is a civilian.” McGowan v. Scoggins. 890 F.2d

48a
128, 138 (9th Cir. 1989); see Millonzi, 2018 WL
283754, at *4 (“even actions taken during the work
week, seemingly in the civilian sphere, may still be
decisions that affect the military hierarchy such that
they are subject to Feres.”).
As a general rule, the Feres doctrine applies
when a legal action would require a civilian court to
examine internal military decisions regarding
management, discipline, supervision, and control of
members of the armed forces. United States v.
Shearer. 473 U.S. 52, 57 (1985); see Cantu. 2012 WL
4962115, at *2 (explaining that the Feres doctrine is
designed in large measure prevent civilian courts
from interfering with military discipline and decision­
making). Under Feres, “a court may not reconsider
what a claimant’s superiors did in the name of
personnel management—demotions, determining
performance level, reassignments to different jobs—
because such decisions are integral to the military
structure.” Filer. 690 F.3d at 648. If it is too difficult
to determine whether a claim arise “incident to
service,” the Fifth Circuit considers: (1) the
serviceman’s duty status; (2) the site of his or her
injury; and (3) the activity he or she was performing.
Walch. 533 F.3d at 297; Schoemer. 59 F.3d at 28; see
also Cantu. 2012 WL 4962115, at *3. In determining
whether the Feres doctrine applies, “ [i] t is the
military environment, not the nature of the claim,
that is controlling.” Filer. 690 F.3d at 649.
The events giving rise to Neville’s claims
occurred on Lackland Air Force Base while she
worked as a Dual-Status Technician. (See 2013 OFO
Decision; 2015 PFE Decision.) While working in both
her civilian and military capacities as a Dual-Status

49a
Technician, Neville performed the same mechanic
tasks—servicing F-16 fighter jets—which is military
in nature and integral to the military mission. (Dkt. #
63 at 12.) The parties dispute whether Neville’s duty
status and activities are alone sufficient to
demonstrate that the discrimination occurred
“incident to military service.” The Court, however,
finds that neither of those two factors override the
most important consideration in the Feres analysis,
which is that courts should not interfere into matters
affecting military affairs and personnel management
decisions. See Filer v. Donley. 690 F.3d 643, 649 (5th
Cir. 2012).
The Feres doctrine bars Neville’s claims
against Federal Respondents and State Respondent
because adjudicating Neville’s claims would require
the Court to delve into questions of military decision­
making. As noted supra, Neville seeks, inter alia, an
order from this Court requiring Federal Respondents
and/or State Respondent to comply with the 2015 PFE
Decision. (Dkt. # 32.) If Neville’s mandamus claims
against Federal Respondents and State Respondent
are successful, this Court would have to issue an order
compelling Federal Respondents or State Respondent
to: (1) revise Neville’s 2006-2007 performance
appraisal; (2) provide at least 16 hours of in-person
training to all management officials and employees in
the 149th Fighter Wing at Lackland Air Force Base,
regarding their responsibilities with respect to Title
VII with special emphasis on preventing and
responding to harassment and their responsibilities
under the federal sector EEO process; (3) take
appropriate
disciplinary
action
against
the
responsible management officials and coworkers
involved in the harassment of Neville; (4) post a notice

50a
of discrimination; and (5) restore Neville’s benefits,
including Neville’s seniority, sick and annual leave,
health and life insurance, any in-grade step(s) and/or
promotion(s) to which she would have been entitled.
(Dkt. # 65-7, Ex. F; Dkt. # 82 at 15.)
Based on the relief Neville seeks, it is clear that
a decision in Neville’s favor would implicate an
intrusion into the very questions of military hierarchy
that Feres was designed to avoid—namely,
inappropriate judicial encroachment and continuing
judicial surveillance over the management, discipline,
supervision, and control of members of the armed
forces. See Gilligan v. Morgan. 413 U.S. 1, 7—8 (1973)
(finding controversy non-justiciable because the relief
sought required initial judicial review and continuing
judicial surveillance over the training, weaponry, and
orders of the National Guard); Shearer. 473 U.S. at 59
(characterizing plaintiffs claims as “the type[s] of
claims that, if generally permitted, would involve the
judiciary in sensitive military affairs at the expense of
military discipline and effectiveness”).
Because the relief Neville seeks would require
the Court to conduct a highly intrusive inquiry into
military affairs and personnel decisions that are
integral to the military structure, it is clear that a
decision in this case in favor of Neville would clearly
implicate “the admonition in Walch that courts should
not interfere with the military’s decisions about
personnel management.” Filer. 690 F.3d at 649 (5th
Cir. 2012) (finding plaintiffs Title VII hostile work
environment claim barred under Feres because
judicial examination into personnel decisions would
be disruptive to the military); see Millonzi. 2018 WL
283754, at*4 n.5 (finding Title VII claim non-

51a
justiciable, in part, because the court would be forced
to reinstate the plaintiff to her civilian position and
military position in the National Guard); see also
Farmer v. Mabus. 940 F.2d 921, 924 (5th Cir.
1991)(“Suits for injunctive relief, like those for
monetary damages, must be carefully regulated in
order to prevent intrusion of the courts into the
military structure.”).
Based on the policies underlying Feres, the
Court is unable to conclude that military affairs will
be any less affected by a mandamus suit than by a
claim for damages. Because Neville seeks relief that
would constitute inappropriate judicial intrusion into
matters affecting military affairs and personnel
management decisions, the Court concludes that
Neville’s mandamus claims against Federal
Respondents are non-justiciable. See Gilligan v.
Morgan. 413 U.S. 1, 7-8 (1973) (finding controversy
nonjusticiable because the relief sought required
initial judicial review and continuing judicial
surveillance over the training, weaponry, and orders
of the National Guard); Shearer. 473 U.S. at 59
(characterizing plaintiffs claims as “the type[s] of
claims that, if generally permitted, would involve the
judiciary in sensitive military affairs at the expense of
military discipline and effectiveness”); Millonzi. 2018
WL 283754, at *3; see also Wa tson v. Arkansas Nat’l
Guard. 886 F.2d 1004, 1009 (8th Cir. 1989) (finding
Feres doctrine barred claims for injunctive relief
where the plaintiff sought to enjoin the putatively
unlawful personnel decisions made by superior
officers and the Secretary of Defense); Daniel v.
Hagel. 17 F. Supp. 3d 680, 689 (E.D. Mich. 2014) (“As
the EEOC’s order here was tied to one discrete
personnel matter and was collateral to monetary

52a
relief, like Plaintiffs claim for damages, Plaintiffs
claim for injunctive relief is non-justiciable.”).
CONCLUSION
For the reasons stated, the Court GRANTS the
EEOC’s,
Federal
Respondents’,
and
State
Respondent’s Motions to Dismiss and Alternative
Motions for Summary Judgment. (Dkts. ## 61, 63, 64.)
In light of the foregoing, the Court DENIES Neville’s
Motion for Summary Judgment and Alternative
Motion for Directed Verdict. (Dkt. # 66.) The Clerk’s
office is INSTRUCTED to ENTER JUDGMENT
and to CLOSE THIS CASE.
IT IS SO ORDERED.
DATED: San Antonio, Texas, March 29, 2018.
/s/ David Alan Ezra
David Alan Ezra
Senior United States
District Judge

53a
29 CFR 1614.103
This document is current through the
November 20, 2019 issue of the Federal Register.
Title 3 is current through October 8, 2019
Code of Federal Regulations > TITLE 29 —
LABOR > SUBTITLE B - REGULATIONS
RELATING TO LABOR > CHAPTER XIV EQUAL
EMPLOYMENT
OPPORTUNITY
COMMISSION > PART 1614 - FEDERAL
EQUAL
EMPLOYMENT
SECTOR
OPPORTUNITY > SUBPART A - AGENCY
PROGRAM
TO
PROMOTE
EQUAL
EMPLOYMENT OPPORTUNITY
§ 1614.103 Complaints of discrimination covered
by this part.
(a)Individual and class complaints of employment
discrimination and retaliation prohibited by title VII
(discrimination on the basis of race, color, religion, sex
and national origin), the ADEA (discrimination on the
basis of age when the aggrieved individual is at least
40 years of age), the Rehabilitation Act
(discrimination on the basis of disability), the Equal
Pay Act (sex-based wage discrimination), or GINA
(discrimination on the basis of genetic information)
shall be processed in accordance with this part.
Complaints alleging retaliation prohibited by these
statutes are considered to be complaints of
discrimination for purposes of this part.

54a
(b)This part applies to:
(1)Military departments as defined in 5 U.S.C.
102;
(2)Executive agencies as defined in 5 U.S.C.
105;
(3)The United States Postal Service, Postal
Rate Commission and Tennessee Valley
Authority;
(4)A11 units of the judicial branch of the Federal
government having positions in the competitive
service, except for complaints under the
Rehabilitation Act;
(5)The National Oceanic and Atmospheric
Administration Commissioned Corps;
(6)The Government Printing Office except for
complaints under the Rehabilitation Act; and
(7)The Smithsonian Institution.
(c)Within the covered departments, agencies and
units, this part applies to all employees and
applicants for employment, and to all employment
policies or practices affecting employees or applicants
for employment including employees and applicants
who are paid from nonappropriated funds, unless
otherwise excluded.
(d)This part does not apply to:
(l)Uniformed members of the military
departments referred to in paragraph (b)(1) of
this section:

55a
(2)Employees of the General Accounting Office;
(3)Employees of the Library of Congress;
(4)Aliens employed in positions, or who apply
for positions, located outside the limits of the
United States; or
(5)Equal Pay Act complaints of employees
whose services are performed within a foreign
country or certain United States territories as
provided in 29 U.S.C. 213(f).

56a
29 CFR 1614.107
This document is current through the November 20,
2019 issue of the Federal Register. Title 3 is current
through October 8, 2019
Code of Federal Regulations > TITLE 29 —
LABOR > SUBTITLE B - REGULATIONS
RELATING TO LABOR > CHAPTER XIV EQUAL
EMPLOYMENT
OPPORTUNITY
FEDERAL
COMMISSION > PART 1614
EMPLOYMENT
EQUAL
SECTOR
OPPORTUNITY > SUBPART A-AGENCY
PROGRAM
TO
PROMOTE
EQUAL
EMPLOYMENT OPPORTUNITY
§ 1614.107 Dismissals of complaints.

(a)Prior to a request for a hearing in a case, the
agency shall dismiss an entire complaint:
(l)That fails to state a claim under § 1614.103
or
§ 1614.106(a) or states the same claim that is
pending before or has been decided by the
agency or Commission;
(2)That fails to comply with the applicable time
limits contained in §§ 1614.105, 1614.106 and
1614.204(c), unless the agency extends the time
limits in accordance with § 1614.604(c), or that
raises a matter that has not been brought to the
attention of a Counselor and is not like or
related to a matter that has been brought to the
attention of a Counselor;

57a
(3)That is the basis of a pending civil action in
a United States District Court in which the
complainant is a party provided that at least
180 days have passed since the filing of the
administrative complaint, or that was the basis
of a civil action decided by a United States
District Court in which the complainant was a
party;
(4)Where the complainant has raised the
matter in a negotiated grievance procedure
that permits allegations of discrimination or in
an appeal to the Merit Systems Protection
Board and § 1614.301 or §1614.302 indicates
that the complainant has elected to pursue the
non-EEO process;
(5)That is moot or alleges that a proposal to
take a personnel action, or other preliminary
step to taking a personnel action, is
discriminatory, unless the complaint alleges
that the proposal or preliminary step is
retaliatory;
(6)Where the complainant cannot be located,
provided that reasonable efforts have been
made to locate the complainant and the
complainant has not responded within 15 days
to a notice of proposed dismissal sent to his or
her last known address;
(7)Where the agency has provided the
complainant with a written request to provide
relevant information or otherwise proceed with
the complaint, and the complainant has failed
to respond to the request within 15 days of its
receipt or the complainant's response does not

58a
address the agency's request, provided that the
request included a notice of the proposed
dismissal. Instead of dismissing for failure to
cooperate, the complaint may be adjudicated if
sufficient information for that purpose is
available;
(8)That alleges dissatisfaction with the
processing of a previously filed complaint; or
(9)Where the agency, strictly applying the
criteria set forth in Commission decisions, finds
that the complaint is part of a clear pattern of
misuse of the EEO process for a purpose other
than the prevention and elimination of
employment discrimination. A clear pattern of
misuse of the EEO process requires:
(i)Evidence
filings; and

of

multiple

complaint

(ii)Allegations that are similar or
identical, lack specificity or involve
matters previously resolved; or
(iii) Evidence of circumventing other
administrative processes, retaliating
against
the
agency's
inhouse
or
administrative
processes
overburdening the EEO complaint
system.
(b)Where the agency believes that some but not all of
the claims in a complaint should be dismissed for the
reasons contained in paragraphs (a)(1) through (9) of
this section, the agency shall notify the complainant
in writing of its determination, the rationale for that

59a
determination and that those claims will not be
investigated, and shall place a copy of the notice in the
investigative file. A determination under this
paragraph is reviewable by an administrative judge if
a hearing is requested on the remainder of the
complaint, but is not appealable until final action is
taken on the remainder of the complaint.

60a
29 CFR 1614.405
This document is current through the November 20,
2019 issue of the Federal Register. Title 3 is current
through October 8, 2019
Code of Federal Regulations > TITLE 29 —
LABOR > SUBTITLE B - REGULATIONS
RELATING TO LABOR > CHAPTER XIV EQUAL
EMPLOYMENT
OPPORTUNITY
COMMISSION > PART 1614 - FEDERAL
EQUAL
EMPLOYMENT
SECTOR
OPPORTUNITY > SUBPART D - APPEALS AND
CIVIL ACTIONS
§ 1614.405 Decisions on appeals.

(a)The Office of Federal Operations, on behalf of the
Commission, shall issue a written decision setting
forth its reasons for the decision. The Commission
shall dismiss appeals in accordance with §§ 1614.107,
1614.403(c) and 1614.409. The decision on an appeal
from an agency's final action shall be based on a de
novo review, except that the review of the factual
findings in a decision by an administrative judge
issued pursuant to § 1614.109(i) shall be based on a
substantial evidence standard of review. If the
decision contains a finding of discrimination,
appropriate remedy(ies) shall be included and, where
appropriate, the entitlement to interest, attorney's
fees or costs shall be indicated. The decision shall
reflect the date of its issuance, inform the
complainant of his or her or her civil action rights, and
be transmitted to the complainant and the agency by
first class mail.

61a
(b)The Office of Federal Operations, on behalf of the
Commission, shall issue decisions on appeals of
decisions to accept or dismiss a class complaint issued
pursuant to § 1614.204(d)(7) within 90 days of receipt
of the appeal.
(c)A decision issued under paragraph (a) of this
section is final within the meaning of § 1614.407
unless a timely request for reconsideration is filed by
a party to the case. A party may request
reconsideration within 30 days of receipt of a decision
of the Commission, which the Commission in its
discretion may grant, if the party demonstrates that:
(1)The appellate decision involved a clearly
erroneous interpretation of material fact or
law; or
(2)The decision will have a substantial impact
on the policies, practices or operations of the
agency.

62a
29 CFR 1614.408
This document is current through the November 20,
2019 issue of the Federal Register. Title 3 is current
through October 8, 2019
Code of Federal Regulations > TITLE 29 —
LABOR > SUBTITLE B - REGULATIONS
RELATING TO LABOR > CHAPTER XIV OPPORTUNITY
EQUAL
EMPLOYMENT
COMMISSION > PART 1614 - FEDERAL
EMPLOYMENT
EQUAL
SECTOR
OPPORTUNITY > SUBPART D - APPEALS AND
CIVIL ACTIONS
§ 1614.408 Civil action: Equal Pay Act.

A complainant is authorized under section 16(b) of the
Fair Labor Standards Act (29 U.S.C. 216(b)) to file a
civil action in a court of competent jurisdiction within
two years or, if the violation is willful, three years of
the date of the alleged violation of the Equal Pay Act
regardless of whether he or she pursued any
administrative complaint processing. Recovery of
back wages is limited to two years prior to the date of
filing suit, or to three years if the violation is deemed
willful; liquidated damages in an equal amount may
also be awarded. The filing of a complaint or appeal
under this part shall not toll the time for filing a civil
action.

63a
29 CFR 1614.503
This document is current through the November 20,
2019 issue of the Federal Register. Title 3 is current
through October 8, 2019
Code of Federal Regulations > TITLE 29 —
LABOR > SUBTITLE B - REGULATIONS
RELATING TO LABOR > CHAPTER XIV ~
EQUAL
EMPLOYMENT
OPPORTUNITY
COMMISSION > PART 1614 - FEDERAL
EQUAL
EMPLOYMENT
SECTOR
OPPORTUNITY > SUBPART E - REMEDIES
AND ENFORCEMENT
§ 1614.503
decisions.

Enforcement

of final

Commission

(a)Petition for enforcement. A complainant may
petition the Commission for enforcement of a decision
issued under the Commission's appellate jurisdiction.
The petition shall be submitted to the Office of
Federal Operations. The petition shall specifically set
forth the reasons that lead the complainant to believe
that the agency is not complying with the decision.
(b)Compliance. On behalf of the Commission, the
Office of Federal Operations shall take all necessary
action to ascertain whether the agency is
implementing the decision of the Commission. If the
agency is found not to be in compliance with the
decision, efforts shall be undertaken to obtain
compliance.
(c)Clarification. On behalf of the Commission, the
Office of Federal Operations may, on its own motion

64a
or in response to a petition for enforcement or in
connection with a timely request for reconsideration,
issue a clarification of a prior decision. A clarification
cannot change the result of a prior decision or enlarge
or diminish the relief ordered but may further explain
the meaning or intent of the prior decision.
(d)Referral to the Commission. Where the Director,
Office of Federal Operations, is unable to obtain
satisfactory compliance with the final decision, the
Director shall submit appropriate findings and
recommendations for enforcement to the Commission,
or, as directed by the Commission, refer the matter to
another appropriate agency.
(e)Commission notice to show cause. The Commission
may issue a notice to the head of any federal agency
that has failed to comply with a decision to show cause
why there is noncompliance. Such notice may request
the head of the agency or a representative to appear
before the Commission or to respond to the notice in
writing with adequate evidence of compliance or with
compelling reasons for non-compliance.
(f) Certification to the Office of Special Counsel.
Where appropriate and pursuant to the terms of a
memorandum of understanding, the Commission may
refer the matter to the Office of Special Counsel for
enforcement action.
(g)Notification to complainant of completion of
administrative efforts. Where the Commission has
determined that an agency is not complying with a
prior decision, or where an agency has failed or
refused to submit any required report of compliance,
the Commission shall notify the complainant of the
right to file a civil action for enforcement of the

65a
decision pursuant to Title VII, the ADEA, the Equal
Pay Act or the Rehabilitation Act and to seek judicial
review of the agency's refusal to implement the
ordered relief pursuant to the Administrative
Procedure Act, 5 U.S.C. 701 et seq., and the
mandamus statute, 28 U.S.C. 1361, or to commence
de novo proceedings pursuant to the appropriate
statutes.

66a
32 USCS § 709
Current through Public Law 116-68, approved
November 8, 2019.
United States Code Service > TITLE 32.
NATIONAL GUARD (§§ 101 — 908) > CHAPTER
7. Service, Supply, and Procurement (§§ 701 —
717)
§ 709. Technicians: employment, use, status

(a)Under regulations prescribed by the Secretary of
the Army or the Secretary of the Air Force, as the case
may be, and subject to subsections (b) and (c), persons
may be employed as technicians in—
(1)the organizing, administering, instructing, or
training of the National Guard;
(2)the maintenance and repair of supplies issued
to the National Guard or the armed forces; and
(3)the performance of the following additional
duties to the extent that the performance of those
duties does not interfere with the performance of
the duties described by paragraphs (1) and (2):
(A)Support of operations
or missions
undertaken by the technician’s unit at the
request of the President or the Secretary of
Defense.
(B) Support of Federal training operations or
Federal training missions assigned in whole or
in part to the technician’s unit.

67a
(C)Instructing or training in the United States
or the Commonwealth of Puerto Rico or
possessions of the United States of—
(i)active-duty members of the armed forces;
(ii)members of foreign military forces
(under the same authorities and restrictions
applicable
to
active-duty
members
providing such instruction or training);
(iii)Department
personnel; or
(iv)Department
employees.

of
of

Defense
Defense

contractor
civilian

(b) Except as authorized in subsection (c), a person
employed under subsection (a) must meet each of the
following requirements:
(1)Be a military technician (dual status) as defined
in section 10216(a) of title 10 [10 USCS
§ 10216(a)],
(2)Be a member of the National Guard.
(3)Hold the military grade specified by the
Secretary concerned for that position.
(4)While performing duties as a military
technician (dual status), wear the uniform
appropriate for the member’s grade and
component of the armed forces.
(c)
(1)A person may be employed under subsection (a)
as a non-dual status technician (as defined by

68a
section 10217 of title 10 [10 USCS § 10217]) if the
technician position occupied by the person has
been designated by the Secretary concerned to be
filled only by a non-dual status technician.
(2)The total number of non-dual status
technicians in the National Guard is specified in
section 10217(c)(2) of title 10 [10 USCS §
10217(c)(2)],
(d)The Secretary concerned shall designate the
adjutants general referred to in section 314 of this
title [32 USCS § 314] to employ and administer the
technicians authorized by this section.

69a
42 USCS § 2000e-16
Current through Public Law 116-68, approved
November 8, 2019.
United States Code Service > TITLE 42. THE
PUBLIC HEALTH AND WELFARE (Chs. 1 —
161) > CHAPTER 21. CIVIL RIGHTS (§§ 1981 —
>
2000h-6)
EQUAL
EMPLOYMENT
OPPORTUNITIES (§§2000e — 2000e-17)
§ 2000e-16. Employment by Federal Government

(a)
Discriminatory
practices
prohibited;
employees or applicants for employment
subject to coverage. All personnel actions affecting
employees or applicants for employment (except with
regard to aliens employed outside the limits of the
United States) in military departments as defined in
section 102 of title 5, United States Code, in executive
agencies as defined in section 105 of title 5, United
States Code (including employees and applicants for
employment who are paid from nonappropriated
funds), in the United States Postal Service and the
Postal Rate Commission [Postal Regulatory
Commission], in those units of the Government of the
District of Columbia having positions in the
competitive service, and in those units of the judicial
branch of the Federal Government having positions in
the competitive service, in the Smithsonian
Institution, and in the Government Printing Office
[Government Publishing Office], the General
Accounting Office [Government Accountability
Office], and the Library of Congress shall be made free

70a
from any discrimination based on race, color, religion,
sex, or national origin.
Equal
Employment
Opportunity
(b)
Commission; enforcement powers; issuance of
rules, regulations, etc.; annual review and
approval of national and regional equal
employment opportunity plans; review and
evaluation of equal employment opportunity
programs and publication of progress reports;
with
consultations
interested
parties;
compliance with rules, regulations, etc.;
contents of national and regional equal
employment opportunity plans; authority of
Librarian of Congress. Except as otherwise
provided in this subsection, the Civil Service
Commission shall have authority to enforce the
provisions of subsection (a) through appropriate
remedies, including reinstatement or hiring of
employees with or without back pay, as will effectuate
the policies of this section, and shall issue such rules,
regulations, orders and instructions as it deems
necessary and appropriate to carry out its
responsibilities under this section. The Civil Service
Commission shall—
(l)be responsible for the annual review and
approval of a national and regional equal
employment opportunity plan which each
department and agency and each appropriate
unit referred to in subsection (a) of this section
shall submit in order to maintain an
affirmative program of equal employment
opportunity for all such employees and
applicants for employment;

71a
(2)be responsible for the review and evaluation
of the operation of all agency equal employment
opportunity programs, periodically obtaining
and publishing (on at least a semiannual basis)
progress reports from each such department,
agency, or unit; and
with
and
solicit
(3)consult
the
recommendations of interested individuals,
groups, and organizations relating to equal
employment opportunity.
The head of each such department, agency, or unit
shall comply with such rules, regulations, orders,
and instructions which shall include a provision
that an employee or applicant for employment
shall be notified of any final action taken on any
complaint of discrimination filed by him
thereunder. The plan submitted by each
department, agency, and unit shall include, but
not be limited to—
(1)provision for the establishment of training
and education programs designed to provide a
maximum opportunity for employees to
advance so as to perform at their highest
potential; and
(2)a description of the qualifications in terms of
training and experience relating to equal
employment opportunity for the principal and
operating officials of each such department,
agency, or unit responsible for carrying out the
equal employment opportunity program and of
the allocation of personnel and resources
proposed by such department, agency, or unit

72a
to carry out its equal employment opportunity
program.
With respect to employment in the Library of
Congress, authorities granted in this subsection to
the Civil Service Commission shall be exercised by
the Librarian of Congress.
(c) Civil action by employee or applicant for
employment for redress of grievances; time for
bringing of action; head of department, agency,
or unit as defendant. Within 90 days of receipt of
notice of final action taken by a department, agency,
or unit referred to in subsection 717(a) [subsec. (a) of
this section], or by the Civil Service Commission upon
an appeal from a decision or order of such department,
agency, or unit on a complaint of discrimination based
on race, color, religion, sex or national origin, brought
pursuant to subsection (a) of this section, Executive
Order 11478 [42 USCS § 2000e note] or any
succeeding Executive orders, or after one hundred and
eighty days from the filing of the initial charge with
the department, agency, or unit or with the Civil
Service Commission on appeal from a decision or
order of such department, agency, or unit until such
time as final action may be taken by a department,
agency, or unit, an employee or applicant for
employment, if aggrieved by the final disposition of
his complaint, or by the failure to take final action on
his complaint, may file a civil action as provided in
section 706 [42 USCS § 2000e-5], in which civil action
the head of the department, agency, or unit, as
appropriate, shall be the defendant.
(d) Section 2000e-5(f) through (k) of this title
applicable to civil actions. The provisions of

73a
section 706(f) through (k) [42 USCS §§ 2000e-5(f)-(k)],
as applicable, shall govern civil actions brought
hereunder, and the same interest to compensate for
delay in payment shall be available as in cases
involving nonpublic parties. [.]
(e) Government agency or official not relieved
of responsibility to assure nondiscrimination in
employment or equal employment opportunity.
Nothing contained in this Act [title] shall relieve any
Government agency or official of its or his primary
responsibility to assure nondiscrimination in
employment as required by the Constitution and
statutes or of its or his responsibilities under
Executive Order 11478 [42 USCS § 2000e note]
relating to equal employment opportunity in the
Federal Government.
(f) Application of Lilly Ledbetter Fair Pay Act.
Section 706(e)(3) [42 USCS § 2000e-5(e)(3)] shall
apply to complaints of discrimination in compensation
under this section.

74a
29 CFR 1614.405
This document is current through the November 20,
2019 issue of the Federal Register. Title 3 is current
through October 8, 2019
Code of Federal Regulations > TITLE 29 —
LABOR > SUBTITLE B - REGULATIONS
RELATING TO LABOR > CHAPTER XIV EQUAL
EMPLOYMENT
OPPORTUNITY
COMMISSION > PART 1614 - FEDERAL
EMPLOYMENT
EQUAL
SECTOR
OPPORTUNITY > SUBPART D - APPEALS AND
CIVIL ACTIONS
§ 1614.405 Decisions on appeals.

(a)The Office of Federal Operations, on behalf of the
Commission, shall issue a written decision setting
forth its reasons for the decision. The Commission
shall dismiss appeals in accordance with §§ 1614.107,
1614.403(c) and 1614.409. The decision on an appeal
from an agency's final action shall be based on a de
novo review, except that the review of the factual
findings in a decision by an administrative judge
issued pursuant to § 1614.109(i) shall be based on a
substantial evidence standard of review. If the
decision contains a finding of discrimination,
appropriate remedy(ies) shall be included and, where
appropriate, the entitlement to interest, attorney's
fees or costs shall be indicated. The decision shall
reflect the date of its issuance, inform the
complainant of his or her or her civil action rights, and
be transmitted to the complainant and the agency by
first class mail.

75a
(b)The Office of Federal Operations, on behalf of the
Commission, shall issue decisions on appeals of
decisions to accept or dismiss a class complaint issued
pursuant to § 1614.204(d)(7) within 90 days of receipt
of the appeal.
(c)A decision issued under paragraph (a) of this
section is final within the meaning of § 1614.407
unless a timely request for reconsideration is filed by
a party to the case. A party may request
reconsideration within 30 days of receipt of a decision
of the Commission, which the Commission in its
discretion may grant, if the party demonstrates that:
(1)The appellate decision involved a clearly
erroneous interpretation of material fact or law; or
(2)The decision will have a substantial impact on
the policies, practices or operations of the agency.

